MORTGAGE PROJECT GROUP’S BILLINGS



         Audit Report No. 00-010
            March 28, 2000




         OFFICE OF AUDITS

   OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                        Office of Audits
Washington, D.C. 20434                                                                           Office of Inspector General




   DATE:             March 28, 2000

   TO:               Michael J. Rubino
                     Associate Director
                     Division of Administration

                     A.J. Felton, Deputy Director
                     Dallas Field Operations Branch
                     Division of Resolutions and Receiverships

                     James G. Thompson, Deputy Director
                     Field Finance Center
                     Division of Finance




   FROM:             Sharon M. Smith
                     Assistant Inspector General

   SUBJECT:          Audit of Mortgage Project Group’s Billings (Audit Report No. 00-010)

   This report presents the results of the Office of Inspector General’s (OIG) audit of Mortgage
   Project Group, Inc.’s (MPG) billings of special servicer fees for contract 97-00321-CEB.
   Generally, we found that MPG billed its special servicer fees in accordance with the terms and
   conditions of the contract. However, we identified two instances where MPG inappropriately
   billed the Federal Deposit Insurance Corporation (FDIC), resulting in almost $58,300 in
   questioned costs. Further, in performing our audit of MPG’s billings, we identified areas where
   we believe the FDIC could have better planned and administered the MPG contract. The
   discussion of these areas provides an opportunity for FDIC management to consider changes to
   the FDIC’s solicitation, award, and contract administration activities, which could provide for
   better future contract execution.

   BACKGROUND

   The FDIC owns the servicing rights to Real Estate Mortgage Investment Conduit (REMIC) and
   REMIC-like asset pools of loans.1 These loans are primarily secured by 1-4 family residential
   1
      The REMIC is a multiple-class mortgage cash flow security, backed by residential mortgage loans, which
   generally have been pooled together in mortgage backed security (MBS) trusts. REMIC securities restructure
   principal and interest payments into separately traded securities. By redirecting the cash flow from the underlying
   standard MBS, the issuer can create a security having several classes, also called tranches, which may carry different
   coupon rates, average lives, prepayment sensitivities, and final maturities. These complex REMIC transactions
   distribute mortgage cash flows in an almost unlimited variety of ways.
properties located in California. The FDIC also has management, liquidation, and accounting
responsibilities for any owned real estate (ORE) resulting from defaulted loans within these loan
pools. Additionally, the FDIC has responsibility to ensure that principal and interest advances on
another group of REMIC loans serviced for others are collected.

To assist with the servicing of these various assets, on April 1, 1997 the FDIC awarded a special
servicing contract to MPG. MPG’s contract was for 1 year, with two 6-month option periods.
The FDIC exercised the options, extending the contract performance period to March 31, 1999.
Subsequently, the FDIC approved a Justification for Non-Competitive Procurement (JNCP) to
restructure and extend the MPG contract period to December 31, 1999.

MPG’s responsibilities under its special servicing contract include the following:

•   Managing and disposing of foreclosed properties on behalf of the investors.
•   Funding recoverable expenses to maintain, repair, and sell the investor-owned properties.
•   Collecting sales proceeds of disposed properties and passing through proceeds to the sub-
    servicer for distribution to the trustee and investors.
•   Processing pool insurance claims, mortgage insurance claims, and trustee claims for
    reimbursement of advances and expenses.
•   Monitoring and reconciling cash flow activity and the work product of the trustee and the
    mortgage loan sub-servicer.
•   Accounting for various REMIC receivables, payables, expenses, and cash receipts.
•   Reporting activity to the trustee and investors related to the pools, cash flows, and
    asset-specific activity.

On September 10, 1997, the FDIC modified the MPG contract to require MPG to reconcile the
accounting records and to review Loss Letters2 of a previous FDIC servicer. Under this
modification, MPG was tasked with reconciling the prior accounting of advances, including:
ORE expense advances, principal and interest advances, advance-related suspense funds held by
the previous servicer, and various custodial accounts. To perform this reconciliation of prior
advances, MPG had to review all Loss Letters prepared by the prior servicer from October 1994
through March 1997 and prepare supplemental Loss Letters, as necessary, for this period.

MPG’s contract, as modified, provided for MPG to be paid monthly fixed dollar amounts for
services provided. Table 1 shows the total amounts that the FDIC paid for various categories of
services through January 31, 1999.




2
  A Loss Letter is a document containing loan level information, in letter format, prepared by the contractor and
delivered to the trustee or investor. The Loss Letter describes the liquidation event, e.g. the receipt of all funds in
final payment of a mortgage loan; all expenses associated with the liquidation event including principal and interest
advances and unrecovered servicing fees, if any; the final liquidation proceeds; and the loss associated with the
liquidation event.


                                                           2
Table 1: Analysis of Special Servicing Fees Paid by FDIC
   Fee Category             Fee Unit         Monthly Amount Total Amount Paid
Flat Fixed Fee        N/A                          $ 16,784.00      $ 402,816
Category 1            Per Pool                          796.58       1,408,177
                      Per Asset (varies as
Category 2            foreclosures occur)               122.01         402,145
Category 3            Per Pool                          968.11         702,848
Category 4            Per Asset                         579.00          24,318
                                                               a
Loss Letters          Per Review                        457.00         202,908
Travel                                                                   1,474
Special Hazard
Losses                Per Task                            N/A            9,750
Total Payments                                                      $3,154,436
Source: MPG contract
a
  Loss Letters were paid on a per task basis, not a monthly basis.

Due to the complexity of the MPG contract, the FDIC assigned Irvine and Dallas staff to a
contract administration team in April 1997. The original team consisted of a Division of
Administration (DOA) contracting officer and contract specialist in Irvine, a Division of
Resolutions and Receiverships (DRR) Irvine oversight manager, and three Division of Finance
(DOF) technical monitors—one in Irvine and two in Dallas. When the Irvine office closed in
September 1998, the DOA and DRR Irvine contracting and oversight responsibilities transferred
to Dallas.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether MPG’s billings were reasonable, adequately
supported, and in compliance with the terms and conditions of the contract and the subsequent
modifications. Our audit scope included MPG’s billings for the period April 1, 1997 through
January 31, 1999.

To gain an understanding of the history of the MPG contract award process, including the
establishment of the contract’s Statement of Work (SOW) and the billing fee structure in the
FDIC’s Request for Proposal (RFP), we interviewed officials from MPG and cognizant FDIC
personnel from DOA, DRR, and DOF. We also reviewed the FDIC’s MPG contract files,
MPG’s proposal submissions, and DOA’s cost analysis of the proposals. Further, we reviewed
the FDIC Technical Evaluation Panel’s (TEP) analysis of offerors’ bids and its recommendation
for contract award. Finally, to gain an understanding of the contract administration process that
led to the final approved changes to the contract, we reviewed the contract and oversight files
relating to the contract modifications.

To determine the mathematical accuracy and correctness of the fees billed by category, we
recalculated all of MPG’s fee billings during the audit period and verified the billing rates to the
terms and conditions of the contract. We then traced MPG’s invoice quantities to MPG’s
records. These records consisted of asset inventory reports compiled by MPG from sub-servicer
reports. We randomly selected 2 months and verified 284 of the 2,808 Category 2 asset


                                                           3
quantities invoiced to MPG’s records, or $34,651 of the $402,145 invoiced. Because of errors
noted in the 2 months tested, we expanded our review to cover all Category 2 asset quantities
invoiced for the period April 1, 1997 through December 31, 1998. Finally, we reviewed the
contractually required deliverable schedule for Loss Letters and compared the schedule to
MPG’s actual delivery of Loss Letters and actual dates that the Loss Letters were billed. We did
not review Category 4 asset activities because the $24,318 that the FDIC paid MPG for these
activities was not material.

We reviewed DRR’s and DOF’s site visitation programs, looking for the frequency and scope of
DRR and DOF visits to MPG, and noting who participated in the visits. We reviewed DRR
oversight management and DOF correspondence files, looking for any significant problems
relating to MPG’s performance, billings, and any internal and external audits performed. We
also reviewed these files to determine DRR’s and DOF’s roles and responsibilities and actions
taken by each during the award and administration process of the MPG contract.

Finally, we reviewed MPG’s correspondence files, invoice files, work products, and
organizational charts to gain an understanding of how MPG performed its contracted work
requirements and monitored its performance against established contract goals and scheduled
timelines. We reviewed MPG’s analysis of the Pooling and Servicing Agreements (PSA) and its
assessment of the FDIC’s responsibilities and obligations to the trustee and investors.
We did not perform a comprehensive review of MPG’s internal controls. Instead we relied on
substantive testing to meet our audit objective. The OIG performed work primarily at the
FDIC’s offices in Dallas, Texas, and at MPG’s office in Irvine, California. The audit was
conducted from January 1999 through April 1999 in accordance with generally accepted
government auditing standards.

RESULTS OF AUDIT

Generally, MPG billed its special servicing fees in accordance with the terms and conditions of
the contract. The two exceptions we noted were related to MPG billings for Category 2 assets
(servicing work related to ORE) and for the preparation of certain Loss Letters. For these two
fee categories, we identified almost $58,300 in questioned costs. Specifically, MPG
inappropriately billed $51,854 for Category 2 account reconciliation and post liquidation work
before the effective date of the contract modification that authorized such work. In addition,
MPG inappropriately billed $6,400 for Loss Letter work that was covered under the fixed
monthly fee portion of the contract.

Additionally, in performing our review of MPG’s billings, we identified other matters that we
want to bring to FDIC management’s attention. Generally, we believe the FDIC could have
better planned and administered the MPG contract. Specifically, the FDIC could have:

   •   better identified its work requirements in the SOW for Category 3 assets,
   •   reduced contract cost by withdrawing Category 3 asset pools from the contract after
       award, and
   •   restructured and extended MPG’s contract in a more economical manner.




                                                4
We believe that had the FDIC more effectively managed and administered the MPG contract,
cost savings may have been realized. We recognize that contract changes and savings cannot be
made to the MPG contract at this time. However, we believe lessons can be learned from the
MPG contract, which will improve the FDIC’s management and administration of future
contracts.

MPG GENERALLY BILLED THE FDIC ACCORDING TO CONTRACT TERMS

Generally, MPG billed the FDIC in accordance with the provisions of the contract. The
contract’s terms and conditions required MPG to perform specific tasks for fixed monthly or per
task fees. MPG adequately performed these tasks and was responsive to the FDIC’s varying
needs. Specifically, fixed fee, Category 1, and Category 3 billings submitted by MPG from
April 1, 1997 through January 31, 1999 were adequately supported and were consistent with the
terms and conditions of the contract.

However, MPG did not always appropriately bill the FDIC for Category 2 asset work or for
preparing basic contract Loss Letters. Specifically, MPG billed $51,854 for Category 2 account
reconciliation and post asset liquidation work performed before the effective date of the contract
modification authorizing such work. Additionally, MPG did not appropriately bill $6,400 for
basic contract Loss Letters. These letters should have been prepared at “no cost” because they
were covered under the basic contract’s fixed monthly fee. Instead, MPG billed these basic
contract loss letters using Amendment One contract provisions. In total, we question $58,300 in
MPG billings.

MPG IMPROPERLY BILLED FOR CATEGORY 2 ASSET WORK

During the period May 1, 1997 through August 31, 1997, MPG billed Category 2 monthly asset
quantities that exceeded the approved asset inventory for two reasons. First, MPG billed account
reconciliation work for assets outside the contracted asset inventory. Second, MPG billed the
FDIC for work related to assets that had been sold and removed from inventory. Table 2 shows
the actual monthly Category 2 asset inventory quantities compared to the asset quantities
invoiced by MPG.

Table 2: Category 2 Asset Inventory and Invoiced Quantities Prior to Amendment One
                  Beginning       REO          Total     Asset Quantities
     Month        Inventory Acquisitions       Assets        Invoiced      Difference
May 1997                  93            10          103               175           72
June 1997                 82            10            92              221          129
July 1997                 64            10            74              173           99
August 1997               63             8            71              196          125
Total                   302             38          340               765          425
Source: MPG’s Monthly Inventory Reports and Invoices

As show in Table 2, for the period May 1997 through August 1997, MPG billed the FDIC for a
total of 425 assets that were not covered under the terms of the contract.



                                                       5
The MPG contract stated that the FDIC would pay MPG a monthly fee of $122.01 per asset for
Category 2 assets. The contract defined Category 2 asset as owned real estate generated as a
result of the default of an underlying loan. Attachment 6 to the contract identified the initial
Category 2 asset inventory. In addition to the initial inventory of Category 2 assets, the contract
allowed MPG to bill a monthly fee for each owned real estate asset subsequently added to the
MPG contract. The contract allowed MPG to bill the FDIC for assets added to the initial
inventory, commencing with the month a particular asset was added.

In April 1997, MPG began receiving receipt and disbursement information from the sub-servicer
related to assets that were not included in MPG’s initial inventory of Category 2 assets. The
subservicer transferred the receipts and disbursements to MPG for account reconciliation work to
be performed. However, because these assets were not in MPG’s contracted inventory, MPG
properly refused to perform account reconciliation tasks for these assets unless the FDIC
specifically allowed MPG to include these assets in its monthly Category 2 billings.

In an undated letter submitted with MPG’s May 1997 invoice, MPG proposed that it be allowed
to bill, as a Category 2 asset, all unsold and sold real estate assets that had FDIC and sub-servicer
account balances needing to be researched and cleared. MPG also proposed that for all sold
assets it be allowed to bill monthly for up to 60 days after completion of the cash/loss letter.
This undated MPG letter included written comments by the DRR oversight manager instructing
the DOF technical monitor to confirm whether MPG’s proposed letter was “. . . okay with
contract language.” The DOF technical monitor advised the oversight manager that these
accounting tasks were outside the contract terms but it was in the FDIC’s best interest to have
MPG perform these tasks.

MPG’s June 1997 invoice submission included a letter dated July 16, 1997, once again
attempting to clarify the Category 2 billing process. In this letter, MPG proposed a second
billing method that would allow MPG to bill all active owned real estate and any sold owned real
estate for which they received or disbursed funds subsequent to sale. On this letter was a hand
written comment by the DRR oversight manager, apparently directed to the DOA contract
specialist, indicating that they had discussed this issue. However, there was no mention of
exactly how MPG was to bill for tasks that were outside the contract terms.

Ultimately, on September 10, 1997, the contracting officer and MPG signed Amendment One,
which specifically added account reconciliation and post liquidation work to the contract. The
language in the amendment differed from either of MPG’s proposals. The amendment limited
the billing period to 60 days for each asset or fund amount. Although the contract amendment
apparently resolved the ongoing issue regarding paying MPG for work that was outside the scope
of the original contract, a significant problem remained related to the effective date of the
amendment. That is, the amendment was made effective on September 10, 1997. However, that
was not when MPG began billing for this “out of scope” work.

According to MPG’s president, in May 1997 MPG started billing for account reconciliation work
related to pre-contract and sold assets. That MPG began billing for these non-contract assets is
supported by MPG’s legal counsel who told us that in May 1997, while he was the DRR
oversight manager for the MPG contract, he verbally instructed MPG to begin billing for these



                                                 6
assets.3 As we previously stated, we performed a detailed review of Category 2 assets billed for
the months of June 1997 and December 1998. The June billing clearly shows that MPG’s
excessive billings over the approved inventory were due to the account reconciliation work and
the post liquidation work. We discussed the billings with a MPG official, who confirmed that
what happened in June 1997 started with the May billing.

In explaining why the FDIC paid MPG for work that was not covered by the contract, DOF and
DOA personnel told us that the FDIC and MPG understood from the inception of the contract
that MPG would perform the reconciliation and post liquidation work and would be compensated
per a future amendment to the contract. DOF and DOA personnel also stated that the May 1997
and June 1997 invoice submissions were signed and approved by the contracting officer, thereby
implying acceptance by all parties. A DOA official in Dallas further stated that no amendment
to the contract was required for the May and June billings because the contracting officer was
within his authority to make prompt decisions on contractual questions and problems.

We disagree with the position taken by the Dallas DOA official that the contacting officer’s
signature on the invoices constituted proper approving for billings outside the scope of the
contract. We fully recognize that the FDIC’s Acquisition Policy Manual (APM) allows, on an as
needed basis and with proper authorization, an effective date of a contract (or amendment) prior
to the execution date. This provision is appropriate when an approved contracting officer
provides a contractor the verbal authorization to begin work before having a fully executed
contract in place. However, the APM requires such verbal authorization to be followed up in
writing. However, in this case, the verbal authorization was not made by the contracting officer
and was not properly followed up with a contract amendment indicating an earlier effective date
covering MPG billings. Amendment One provisions authorized MPG to commence account
reconciliation and post liquidation work and bill for these tasks starting in September 1997. The
FDIC could have made April 1, 1997 the effective date of Amendment One. However, the
amendment specifically provided September 10, 1997 as the effective date.

Conclusion and Recommendation

The FDIC should have complied with contracting policy when task changes were provided to
MPG. Any verbal authorization to MPG advising it to perform work outside the scope of the
contract should have been made by the contracting officer and should have been followed up in
writing. However, we found no documentation confirming that the contracting officer
authorized MPG to begin working the account reconciliation and post liquidation tasks in May
1997. Further, we do not believe that the contracting officer’s signature approving the May and
June invoices was sufficient action to support authorization for the Category 2 account
reconciliation and post liquidation tasks billed for the period May through August 1997. The
contracting officer should have provided a written document delineating acceptance of either
MPG’s May proposed billing method; MPG’s June proposed billing method, or a FDIC
alternative billing method. We have no documentation to support the billing method or methods
used by MPG or approved by the FDIC for the months of May through August 1997.

3
  Before being hired as MPG’s Legal Counsel, this individual was DRR’s oversight manager for the MPG contract
from April 1, 1997 through December 4, 1997. The FDIC’s Office of Ethics investigated this matter and determined
that the former DRR employee could not represent MPG on issues related to the FDIC.


                                                       7
Although we acknowledge that it may have been necessary for the FDIC to have the additional
account reconciliation and post liquidation tasks performed, a technical contract violation
occurred because tasks performed were not covered by a written contract or amendment.
Without specific contract language authorizing the additional Category 2 account reconciliation
and post liquidation work prior to September 1997, we have questioned all quantities invoiced
over the monthly Category 2 ORE asset inventory quantities for the period of May 1997 through
August 1997. We allowed fees for the cumulative Category 2 beginning monthly inventory and
acquisition quantities of 340, and questioned the remaining 425 quantities billed. For the 425
assets billed at the $122.01 contract fee, we questioned costs totaling $51,854.

Accordingly, the OIG recommends that the Associate Director, Acquisition and Corporate
Services Branch, DOA,

(1) Analyze the fees paid to MPG for account reconciliation and post liquidation work
    performed without a contract, determine whether these services should be ratified, and
    determine how much of the $51,854 should be disallowed.

MPG IMPROPERLY BILLED FOR REVISED LOSS LETTERS

In March 1998, MPG improperly billed the FDIC for preparing 14 revised Loss Letters.
Specifically, soon after the inception of its contract in April 1997, MPG began preparing
contract-required Loss Letters. MPG’s reimbursement for these Loss Letters was covered as part
of its fixed monthly fee. MPG realized that it had incorrectly prepared 14 Loss Letters in June
1997 and began revising them. Then, in March 1998, MPG billed the FDIC for revising the
same 14 Loss Letters that MPG, itself, had prepared incorrectly, almost 1 year earlier. As a
result, the FDIC paid MPG almost $6,400 for MPG to correct its own errors.

Shortly after contract award, MPG realized that the FDIC’s previous special servicing contractor
had incorrectly prepared Loss Letters (at the same time, MPG realized that 14 of its own Loss
Letters were prepared in error). Specifically, the previous contractor and MPG mistakenly
recognized property tax penalties and related interest and fees as expenses, contrary to provisions
in the PSA. To address the problems associated with these incorrect Loss Letters, the FDIC and
MPG agreed to allow MPG to revise “historical” Loss Letters that were incorrectly prepared. A
contract amendment was agreed to that permitted MPG to bill the FDIC for these revisions.
Such an agreement was documented as part of Amendment One to the basic contract. In part,
the amendment states, “MPG will identify the inventory of Loss or Cash Letters that were
completed after October 1994; review them; and prepare supplementals, as necessary.”
Although MPG was clearly allowed to bill the FDIC for revising the Loss Letters that were
incorrectly prepared by the previous special servicing contractor, we do not believe that MPG
should receive additional reimbursement for revising Loss Letters that MPG, itself, incorrectly
prepared.

According to MPG’s Legal Counsel, when he was the oversight manager for this contract, he
instructed MPG to prepare the Loss Letters in the same manner as the previous special servicing
contractor. It may be argued, therefore, that MPG is entitled to the additional compensation
because the FDIC contributed to MPG’s error. We disagree with this potential argument for two



                                                 8
reasons. First, section 5.7.1 of the basic contract required MPG to prepare Loss Letters in
accordance with the PSA. Any failure on the part of MPG to prepare the Loss Letters in
compliance with the PSA is MPG’s responsibility, and MPG should bear the cost. Second,
neither MPG’s Legal Counsel nor any FDIC officials have yet to provide us any evidence, other
than the Legal Counsel’s oral statement, that the FDIC provided MPG incorrect guidance.

In addition, although MPG’s Legal Counsel said that while he served as MPG’s oversight
manager he verbally instructed MPG to bill these 14 Loss Letters, the contracting officer never
confirmed these instructions by following up with a written authorization, as required by FDIC
policy. Finally, we find the timing of MPG’s billing interesting. MPG did not actually bill the
FDIC for these revisions until almost 1 year after the original work was performed. In fact, the
billings did not take place until after the former oversight manager was employed by MPG.

In addressing the issue of MPG’s billings of the revised Loss Letters, DRR personnel pointed out
that the amendment did not explicitly exclude from reimbursement Loss Letters prepared by
MPG. A DRR official stated that these 14 Loss Letters had to be completed a second time
because MPG was not instructed by the FDIC to include hazard insurance. Again, we disagree
with DRR’s position on this matter. First, although we acknowledge that Amendment One did
not specifically exclude from reimbursement Loss Letters prepared by MPG, the amendment
section addressing Loss Letter reviews is titled “Historical Reconciliations and Reviews.”
Second, as we previously stated, MPG was required to prepare loss letters in accordance with the
PSA and to include sufficient information to easily identify liquidation amounts received and
disbursed. Section 2.13 of the MPG contract defined liquidation amounts to include special
hazard insurance proceeds. Therefore, the PSA and the contract provided MPG the information
necessary for it to correctly prepare the Loss Letters.

Conclusion and Recommendation

The preparation of Loss Letters was covered in the basic contract as part of MPG’s fixed
monthly fee. Although MPG was clearly entitled to be reimbursed for revising the incorrect
Loss Letters prepared by the previous servicer, it is not reasonable for the FDIC to reimburse
MPG for correcting its own mistakes.

Accordingly, the OIG recommends that the Associate Director, Acquisition and Corporate
Services Branch, DOA,

(2) Disallow $6,400 in questioned costs related to MPG’s billing the FDIC for revising Loss
    Letters that MPG initially prepared in error.

FDIC COULD HAVE BETTER PLANNED AND ADMINISTERED THE CONTRACT

We believe that the FDIC could have better planned and administered the MPG contract. The
FDIC program offices involved with this contract should have ensured that the RFP contained
sufficient information necessary to meet procurement needs and the FDIC could have more
effectively managed contract changes. Specifically, the FDIC could have:




                                                9
•      more clearly identified and delineated the Category 3 work requirements in the SOW during
       the contract planning process,
•      reduced contract cost by withdrawing the Category 3 asset pools from the contract, and
•      restructured and extended the MPG contract in a more economical manner.

The FDIC Could Have Better Identified Work Requirements

Prior to awarding the contract to MPG, the FDIC could have better identified contract work
requirements within its SOW. In particular, the FDIC could have more clearly delineated to the
potential bidders the Category 3 services that were required under the contract. Evidence
suggests that MPG did not fully understand the nature of the work required for the Category 3
assets. As a result, MPG bid a fee that appears excessive for the work actually required.

Language in the SOW regarding Category 3 work requirements was vague. Specifically,
Section 1.1 of the SOW contained only the following description relating to the Category 3 work
requirements: “In addition, there are approximately 32 other REMIC Pools, consisting of
approximately 5,400 loans, the loan level servicing of which has been returned to the Trustee
under a settlement agreement. These Pools require monitoring of FDIC’s interest through review
of Trustee reports for compliance with the settlement agreement and reports of review findings to
FDIC.” We found no other language in the SOW that specifically addressed the Category 3
work requirements. Most importantly, the FDIC did not clearly specify what the phrase
“required monitoring” entailed.

We do not believe that the SOW adequately described the monitoring tasks to be
performed, the Trustee reports to be reviewed, and the extent of the FDIC’s compliance
testing and reporting requirements. As we previously stated, the language in the SOW
regarding Category 3 work was brief and lacked specificity. We also base our belief that
the SOW was not adequate on our analysis of the offerors’ bids. The four bids for
Category 3 tasks ranged from a low of $5 per month to a high of $1,061 a month.
Further, MPG’s Category 3 bid of $1,061 was over 300 percent higher than FDIC’s own
cost estimate of $260 a month for Category 3 work. Table 3 shows the FDIC’s
procurement case cost estimate and the offerors’ bids received by the FDIC in response to
the SOW.

Table 3: Comparison of FDIC’s Cost Estimate and Offerors’ Bids for the RFP
                 FDIC Case
 Monthly Fees Cost Estimate    Offeror #1     Offeror #2     MPG         Offeror #4
Fixed Fee            $41,000    $305,000.00      $40,000     $16,784         $52,000
Category 1               770           2.50          914          878             400
Category 2               820         780.00          648          129             300
Category 3               260           5.00          198        1,061a            250
 Total            $2,453,640 $4,591,410.00 $2,367,816 $1,763,004          $1,532,400
Source: TEP analysis contained in DOA contract files.
a
    MPG revised its bid to $968.11 in its Best and Final Offer proposal




                                                            10
Additional evidence that the SOW may not have been adequate was the FDIC’s own recognition
prior to contract award that MPG had priced the Category 3 fee too high for the work required. In a
memorandum, Addendum to TEP Recommendation, dated February 19, 1997, the DRR TEP
Chairman advised the contract specialist that although Category 3 assets required very little activity
except for monitoring, MPG priced its Category 3 work higher than its work on Category 1 assets,
where the bulk of the work would be done. The TEP Chairman’s memorandum further stated that
MPG’s proposed Category 3 fees were totally unjustified based on the amount of work required.

MPG’s president told us that MPG could not determine the work requirements for Category 3
assets based on the SOW alone. Therefore, MPG called the FDIC and obtained “over the
telephone” clarification of the required Category 3 special services. Based on the verbal
information received, MPG bid a Category 3 fee based on a staff of five performing a “full loss
letter audit” for each pool asset. This loss letter audit was to include a detailed audit of the loan
servicer’s loan servicing and advance recovery systems.

However, according to MPG’s president, immediately after the award of the contract, the FDIC
told MPG that the loss letter audits for Category 3 assets would not be performed. Because of an
on-going lawsuit filed March 1996 against the FDIC by the loan servicer, neither the FDIC nor
MPG had access to the servicer’s accounting records needed to perform the loss letter audit.
Moreover, an August 1994 settlement agreement between the FDIC and the loan servicer limited
the FDIC’s audit rights to a review of the servicer’s monthly reports. The FDIC had no rights to
audit the loan servicing and advance recovery systems as was proposed.

After the award of the contract, MPG immediately recognized the reduced level of effort required for
monitoring and reporting on the servicer’s activities and canceled the hiring of two persons. MPG
reassigned two employees targeted for Category 3 work, to the new Category 1 and 2 Loss Letter
work requirements being added to the contract through Amendment One. Ultimately, MPG
assigned only one employee to perform the limited work of monitoring and reporting on the
servicer’s activities relating to Category 3 pools. Thus, in lieu of the five employees that MPG
originally envisioned in establishing its Category 3 fee, MPG used only one employee. This MPG
employee told us he spent from 2 days to 2 weeks each month performing the Category 3 contracted
tasks.

DOF and DOA personnel told us that the variance in bids was not due to a vague SOW, but rather
the lack of experience of two of the bidders. The TEP established the competitive range to include
only those firms, MPG and Offeror #4, which the panel believed had the necessary experience.
They also said that in addition to the original SOW provided as part of the Request for Proposal, the
two firms deemed to be in the competitive range were provided Amendment 1 to the SOW, a more
detailed SOW covering the Category 3 Assets.

We believe that the bidding differential was attributed to a vague SOW. Although the TEP may
have eliminated two bidders from the competitive range because of lack of experience, the Category
3 bids of the two remaining bidders (MPG and Offeror #4) were still far apart. Further, MPG told us
that Amendment 1 to the SOW, the more detailed SOW provided to MPG and Offeror #4 during the
Best and Final Offer phase, did not address the scope of work for Category 3 assets, but only
clarified the definition of Category 3 assets. Our review of the amendment confirmed this statement.



                                                  11
We believe that the difference in bids is attributable to the fact that Offeror #4 was the incumbent
contractor performing the Category 3 work at the time the bids were submitted. Therefore, Offeror
#4 had a detailed knowledge of the Category 3 work requirements. We believe had the FDIC clearly
identified the Category 3 work requirements in the original Request for Proposal or during the Best
and Final Offer phase, MPG would have clearly understood that a full loss audit was not required. It
is, therefore, likely that MPG would have accordingly reduced its final Category 3 bid to reflect a
similar price as Offeror #4’s $250 per asset bid and the FDIC’s cost estimate of $260 for Category 3
assets, which did not include the full loss letter audit.

As a result of the unclear requirements in the statement of work, we estimate that MPG overpriced
the monthly Category 3 fee by 90 percent. MPG based its fixed monthly bid for the Category 3
work on needing five fulltime employees. However, MPG actually only needed the efforts of one
employee for approximately 2 weeks out of each month. Based on this 90 percent overpricing, we
believe that the FDIC made a total of about $613,400 in unnecessary payments during the period of
April 1, 1997 through January 31, 1999.

The FDIC Had Opportunities To Reduce Contract Costs

Even after the FDIC had awarded the contract to MPG, the FDIC had opportunities to reduce the
fees paid to MPG for Category 3 work. Immediately after award of the MPG contract on April 1,
1997, the DOA Irvine contracting officer could have coordinated with DRR and DOF to withdraw
the Category 3 asset pools from the contract as suggested in the February 19, 1997 TEP
memorandum.

When asked about the withdrawal of Category 3 assets, the Irvine DRR oversight manager said the
reason immediate attention was not focused on Category 3 tasks after contract award was that the
FDIC and MPG placed priority on the Category 1 tasks in order to facilitate the FDIC’s efforts to
sell the asset portfolio. DOF and DOA personnel stated that the procurement case cited the
importance of having all REMIC functions retained in a single, cohesive location and that the FDIC
did not have the level and breadth of experience necessary to maintain the varied requirements of the
REMIC portfolio.

We disagree with the FDIC’s position on these matters. The Category 3 work requirements were
vastly different and separate from the Category 1 and 2 work requirements. Category 3 assets also
were not part of the portfolio sale initiative. For the Category 3 assets, the FDIC simply needed to
monitor and collect outstanding cash advances reported on the general ledger. In February 1997,
prior to the MPG contract award, the FDIC had reconciled the cash advance account, had identified
applicable variances, and had created spreadsheets to enter the necessary monthly data reported and
received from the servicer to monitor the reimbursement of the cash advances.

DOF and DOA acknowledged that from its inception the MPG contract contained a 30-day notice
for withdrawal of any or all assets. DOF and DOA also provided us with a copy of the bidders
Questions and Answers where the FDIC told the bidders that the FDIC would not pay a termination
fee for the premature withdrawal of any category of loans. The FDIC informed the bidders that they
were to bid based on the possibility that a specific asset category could be withdrawn at any time.




                                                 12
On February 16, 1999, the FDIC took what we believe was appropriate action and withdrew
Category 3 asset pools from the MPG contract effective February 1, 1999. DOF is currently
performing the Category 3 work in-house. DOF’s financial manager told us that DOF is still
assessing its staffing needs for the work but the requirement would be less than 2 weeks each month
for one employee.

The FDIC Could Have Restructured The MPG Contract In A Manner That Was More
Economical

The FDIC could have changed the Category 1 work requirements and extended the MPG
contract in a more economical manner. Specifically, we believe the FDIC should have followed
its approved JNCP, which authorized moving the asset pools related to Loans Serviced for
Others (LSFO) to the new Dallas DOF 5-year joint venture contract. Instead, FDIC management
moved the REMIC pools (rather than the LSFO pools) to the new Dallas DOF contract and MPG
began billing the complex REMIC pools on an hourly-rate basis instead of the MPG contracted
fixed monthly fee basis. Accordingly, we believe the FDIC will pay MPG more in fees than it
would have paid had the approved JNCP been followed.

The JNCP that Dallas DRR and DOF management approved on February 16, 1999, authorized
the removal of 42 Category 1 LSFO pools from the MPG contract, and extended the period of
performance to December 31, 1999. However, instead of following the JNCP, the contract
administration team removed 8 LSFO pools and 34 Category 1 REMIC pools from the MPG
contract. All 42 of these pools were transferred to the new Dallas 5-year joint venture contract
managed in part by MPG.

As is supported by language in the JNCP, it is generally accepted that the LSFO pools are easier
to work than the more complex REMIC pools. In fact, MPG’s records show that during the
course of its contract it had two people directly working on the 42 LSFO pools and five people
directly working on the 34 REMIC pools. However, under the MPG contract, the FDIC pays the
same monthly fixed fee for the LSFO pools as for the REMIC pools. Therefore, because the
REMIC pools required three more employees than the LSFO pools for a similar workload, we
estimate that the FDIC will pay MPG approximately $214,000 more by shifting the more
complex REMIC pools to the new Dallas joint-venture contract. We based our estimate on the
monthly cost per employee of approximately $6,512 included in the JNCP cost estimate.
Because the 34 LSFO pools required only two-MPG employees, we believe that three of the five
MPG employees would not have been necessary for the 11-month period February 1, 1999
thorough December 31, 1999.

In explaining why they did not follow the JNCP, the FDIC’s contract administration team stated
that there was concern that the FDIC would not sell the portfolio in October 1999. The DRR
oversight manager stated that if the sale was unsuccessful in October 1999, the FDIC would
continue to need MPG’s experienced staff to work the REMIC pools after December 31, 1999.
In order to provide the experienced employees with a more secure work environment, the FDIC
placed the REMIC work under the new 5-year joint venture contract. The OIG believes that it is
likely that the FDIC has qualified staff, currently managing and overseeing the MPG contract,
that could complete the REMIC work when MPG’s contract expires.



                                                13
CONCLUSION

We believe that in addition to specific questioned costs identified in this report that need to be
addressed by FDIC management, there are lessons that can be learned from this procurement. It
is important to note that the FDIC has policies and procedures in place to guide and direct its
staff in effectively establishing, administering, and overseeing contracts. For example. the
FDIC’s Acquisition Policy Manual points out the importance of developing a clear, concise, well
thought out SOW and a complete and adequate requirements package. Moreover, the manual
also provides sufficient guidelines for processing contract changes. Nevertheless, we believe
that there were problems with this procurement from the outset. Such problems occurring, in an
environment of adequate policies and procedures, illustrate the need for FDIC management to
carefully monitor all procurements.

CORPORATION COMMENTS AND OIG EVALUATION

On March 13, 2000, the Associate Director of DOA’s Acquisition and Corporate Services
Branch provided a written response to recommendations addressed to him in a draft of this
report. In addition, the Deputy Director of the Dallas Field Operations Branch, DRR, and
Deputy Director of the Field Finance Center, DOF, provided written responses on February 23,
2000 and February 28, 2000, respectively. All three responses are presented in appendix I of this
report. A summary of the responses to the draft and our analysis follows.

Analyze the fees paid to MPG for account reconciliation and post liquidation work
performed without a contract, determine whether these services should be ratified, and
determine how much of the $51,854 should be disallowed (recommendation 1): Both the
Associate Director, DOA, and the Deputy Director, DRR, disagreed with the recommendation.
The Associate Director, DOA, stated that “DOA staff believes that the work billed between April
1997 and September 1997 was within the scope of the original agreement and our documentation
supports this mutual understanding of the definition of Category 2 assets.” We have discussed
this matter, at length, with DOA personnel throughout the audit, and we continue to disagree
with the Associate Director’s position on this matter. Although the nature of the work billed
during the period in question was covered by the contract, the asset quantities billed were not.
As we previously stated, attachment 6 to the contract identified the initial Category 2 asset
inventory and the contract allowed MPG to bill a monthly fee for each owned real estate asset
subsequently added to the contract. However, the 425 asset quantities that we questioned were
not in the contracted inventory and, therefore, were not covered by the contract until the signing
of Amendment One, in September 1997.

The DRR Deputy Director’s argument follows a line of reasoning similar to that of the Associate
Director but he adds that “Both the oversight manager and technical monitor signed off on the
monthly invoices which included the expenses for the months prior to the amendment which
verifies that they were in agreement to pay MPG for this work.” Our position on this matter
remains the same. We do not believe that the contracting officer’s signature on an invoice
constituted the proper approving of work outside the scope of the contract.




                                                14
We recognized in our conclusion to this finding that the additional work billed by MPG may
have been necessary. That is why we treated this matter as a technical contract violation and
recommended that the FDIC ratify the fees paid that it believes were appropriate. We continue
to believe that our recommendation has merit.

The Corporation’s response provided us with the requisite elements of a management decision
for the recommendation. Although we do not agree with management’s decision, we do not
believe the disagreement is significant.

Disallow $6,400 in questioned costs related to MPG’s billing the FDIC for revising Loss
Letters that MPG initially prepared in error (recommendation 2): Both the Associate
Director, DOA, and the Deputy Director, DRR, disagreed with the recommendation. The
Associate Director’s position is that MPG prepared the 14 Loss Letters incorrectly based on the
data available and at the direction of the Oversight Manager. He also said that “The Oversight
Manager was aware the loss letters were not as complete as they could be, but wanted to
complete the loss letters with what information was available and re-do them later, if necessary.”
Again, the DRR Deputy Director’s argument is similar.

We reviewed the oversight files and interviewed the cognizant Oversight Manager at length, but
found no evidence to support the statement that Oversight Manager knowingly instructed MPG
to prepare the Loss Letters incorrectly. Further, the Associate Director’s statement that MPG did
not have access to the third-party servicer’s monthly reports is not relevant to our finding.
MPG’s error involved improperly recognizing in the Loss Letters property tax penalties and
related interest and fees as expenses, contrary to the PSA. Upon a closer reading of the PSA,
MPG realized that both MPG and the previous special servicing contractor had incorrectly
prepared the letters. As a result, Amendment One was added to the contract, which allowed
MPG to correct “Historical Loss Letters.” Having represented themselves as experts in the field
of special servicing, we believe that MPG should have borne the cost of incorrectly preparing
their Loss Letters.

We acknowledged in the report that the contract amendment referring to the revision of Loss
Letters did not specifically exclude letters prepared by MPG. Our position is simply that the
FDIC should not pay MPG for correcting its own mistakes.

The Corporation’s response provided us with the requisite elements of a management decision
for the recommendation. Although we do not agree with management’s decision, we do not
believe the disagreement is significant.

Appendix II presents management’s proposed actions on OIG recommendations and shows that
we have management decisions for the two recommendations in this report.

Based on our work, the OIG will report questioned costs of $58,254 in its Semiannual Report to
the Congress.




                                                15
                                                                                     APPENDIX I
                                        CORPORATION COMMENTS
FDIC
Federal Deposit Insurance Corporation
Washington, D.C. 20429                                         Division of Administration




DATE:                            March 6, 2000

MEMORANDUM TO:                   Sharon M. Smith
                                 Assistant Inspector General


FROM:                            Michael J. Rubino
                                 Associate Director
                                 Acquisition and Corporate Services Branch

SUBJECT:                         MANAGEMENT DECISION
                                 Draft Report Entitled Mortgage Project Group’s Billings

The Acquisition and Corporate Services Branch (ACSB) has completed its initial review of the
subject Office of Inspector General (OIG) draft report. Our review focused on the
recommendations in the report that would be entered into the Internal Review Information
System (IRIS). The management decision is presented in three parts: (1) the Executive
Summary; (2) Management Decision detail; and (3) a Summary of the Management Decisions
Table.

EXECUTIVE SUMMARY

The following table represents an overview of the management decision. A more comprehensive
summary of the decision that details specific areas of agreement or disagreement with the
findings and describes necessary corrective actions, including milestone dates follows.




                                                  16
  Finding            Finding Description        Questioned   Management   Recovery    Difference
      #                                            Costs      Response     Amount
  1         MPG improperly billed for           $ 51,854     Disagree     $0          $51,854
            Category 2 asset work
  2         MPG improperly billed for revised   $ 6,400      Disagree     $0          $6,400
            loss letters


MANAGEMENT DECISION

FINDING # 1: MPG improperly billed for Category 2 asset work

CONDITION: OIG concluded that MPG billed $51,854 for Category 2 account reconciliation
and post asset liquidation work performed before the effective date of the contract modification
authorizing such work.

RECOMMENDATION: The Associate Director, DOA, should analyze the fees paid to MPG
for account reconciliation and post liquidation work performed without a contract, determine
whether these services should be ratified, and determine how much of the $51,854 should be
disallowed.

MANAGEMENT DECISION: We disagree with the recommendation. DOA staff believes that
the work billed between April 1997 and September 1997 was within the scope of the original
agreement and our documentation supports this mutual understanding of the definition of
Category 2 assets. The work subsequent to that period was a significant departure and
enlargement of the original statement of work, which required new pricing. The change also
instituted a limitation on how long MPG could bill accounting work on sold REO and created an
automatic Category 2 Asset withdrawal mechanism.

CORRECTIVE ACTION: It is our position that the Category 2 account reconciliation and post
asset liquidation work performed between April 1997 and September 1997 were within the scope
of the original contract. Therefore, no ratification and/or disallowance should be necessary.

FINDING # 2: MPG improperly billed for revised loss letters

CONDITION: OIG concluded that MPG did not appropriately bill $6,400 for basic contract
loss letters. The OIG believes the letters should have been prepared at “no cost” because they
were covered under the basic contract’s fixed monthly fee.

RECOMMENDATION: The DOA Regional Manager should disallow $6,400 in questioned
costs related to MPG’s billing the FDIC for revising Loss Letters that MPG initially prepared in
error.


                                                 17
MANAGEMENT DECISION: We disagree with the recommendation. MPG did not
inappropriately bill FDIC $6,400 for duplicate Loss Letters. Therefore, no further action is
required and recovery is not warranted.

The Contractor prepared the 14 Loss Letters with the data available at the time at the direction of
the Oversight Manager. The Oversight Manager was aware the loss letters were not as complete
as they could be, but wanted to complete the loss letters with what information was available and
re-do them later, if necessary. The Contractor documented the unavailable data in its Project
Plan, attached as Attachment 1 to Amendment #1 of the Agreement. MPG proposed corrective
action, which the FDIC acknowledged and accepted. This Plan acknowledged that MPG did not
have access to the third-party Servicer’s (Wendover) monthly open and expired item report that
detailed exceptions on a asset level. A contractor cannot be held responsible for circumstances
beyond its control. FDIC acknowledged the Contractor’s inability to access data, accepted the
corrective action, and acted accordingly to obtain the data and compensated the Contractor for
the work performed.

CORRECTIVE ACTION: FDIC staff required that the Loss Letters be redone later when
adequate information was available to the Contractor. Therefore, no corrective action is
necessary.


cc:    David McDermott
       Howard Furner
       Andrew Nickle
       Mary Rann
       Freddie Cook
       Sandra West, Dallas




                                                18
                                                             EXHIBIT A

                                 SUMMARY OF ACQUISITION SERVICES BRANCH MANAGEMENT DECISIONS


NO.         FINDING               QUESTIONED   MANAGE-              DESCRIPTION OF CORRECTIVE              EXPECTED     DOCUMENT
          DESCRIPTION             COST/OTHER     MENT                     ACTION                          COMPLETION    VERIFYING
                                   FINANCIAL   RESPONSE                                                      DATE      COMPLETION
                                  ADUSTMENT

                                                          CORRECTIVE ACTION: We believe that OIG
      MPG improperly billed
1                                 $ 51,864     Disagree   incorrectly interpreted this provision of the   N/A          N/A
      for Category 2 asset                                contract. Therefore, no corrective action is
                                                          necessary.
      work
                                                          .




                                               Disagree   CORRECTIVE ACTION: We believe that OIG          N/A          N/A
      MPG improperly billed
2                                 $6,400                  incorrectly interpreted this provision of the
      for revised loss letters                            contract. Therefore, no corrective action is
                                                          necessary




                                                                  19
Federal Deposit Insurance Corporation
1910 Pacific Avenue, 2nd floor, Dallas, TX 75201                       Division of Resolutions and Receiverships




DATE:                February 23, 2000

TO:                  Sharon M. Smith
                     Assistant Inspector General
                     Office of Inspector General



FROM:                A. J. Felton
                     Deputy Director
                     Division of Resolutions and Receiverships

SUBJECT:             OIG Draft Report Entitled Mortgage Project Group's Billings
                     Audit Number 98-215

We have reviewed the final draft of the subject audit dated January 14, 2000. I have restated the
recommendations followed by our responses. Your report includes:

Recommendation 1.) Analyze the fees paid to MPG for account reconciliation and post
liquidation work performed without a contract, determine whether these services should be
ratified, and determine how much of the $51,854 should be disallowed.

The OIG is questioning $51,854, which was paid to MPG for account reconciliation and post
liquidation tasks performed on assets between May 1997, and September 1, 1997 when both
parties allowing reimbursement for this work signed an amendment. The OIG acknowledges that
this work was necessary but that a technical contract violation occurred because the tasks were
not covered in the contract or an amendment. MPG sent a letter to FDIC with the May billing
asking for approval to reimburse the contractor for this work and this letter was discussed by the
DRR oversight manager and DOF technical monitor Both the oversight manager and technical
monitor signed off on the monthly invoices which included the expenses for the months prior to
the amendment which verifies that they were in agreement to pay MPG for this work These
actions were essential to the continuous operation. It is FDIC's position that the work performed
was covered by the contract and that approval of the invoices by the Oversight Manager and the
Contracting Officer was proof of that understanding Therefore there is not a valid reason to
request reimbursement from the contractor for work performed for, and approved by, the
oversight manager. DRR Management feels no further action is warranted

Recommendation 2.) Disallow $6,400 in questioned costs related to MPG's billing the FDIC for
revising Loss Letters that MPG initially prepared in error.

The OIG is questioning $6,400 that was paid to MPG for loss letters that had to be completed a
second time. MPG was verbally instructed by the FDIC oversight manager to complete the loss
letters the same way as the previous contractor. Unfortunately, the previous contractor and the
oversight manager were not aware of some of the provisions of the PSA and as a result, MPG


                                                    20
had to complete some of the loss letters a second time. The amendment to the contract indicates
that MPG will be paid $457 for revising the incorrect loss letters and there is no mention that the
incorrect loss letters had to be completed by the former contractor. It is clear that MPG
completed the loss letters in question and the actions were requested and approved by the
oversight manager, therefore, the contractor was entitled to be paid. DRR Management feels no
further action is warranted.




                                                21
                                     February 28, 2000



MEMORANDUM TO:                Sharon M. Smith
                              Assistant Inspector General


FROM:                         James G. Thompson, Jr.
                              Deputy Director, Division of Finance

SUBJECT:                      Draft Report Entitled Mortgage Project Group’s Billings


In response to the draft report referenced above, I have reviewed the recommendations and the
draft responses provided to you by DRR and DOA. The responses indicate that no further
corrective actions will be taken on these items. I concur and I have no further comments at this
time.

If you have any questions concerning DOF, please advise.




Cc:    Michael J. Rubino
       A. J. Felton




                                               22
                                                                                                                                           APPENDIX II
                                            MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

   §    the specific corrective actions already taken, if applicable;
   §    corrective actions to be taken together with the expected completion dates for their implementation; and
   §    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information
for management decisions is based on management’s written response to our report and subsequent discussions with management representatives.

                                                                                               Documentation                       Management
 Rec.                                                                    Expected             That Will Confirm     Monetary       Decision: Yes
Number         Corrective Action: Taken or Planned/Status             Completion Date           Final Action        Benefits          or No
            FDIC management did not agree with the
                                                                                                  Management
    1       recommendation stating that the billings questioned        Not Applicable                                  None             Yes
                                                                                                   Responses
            were within the scope of the original contract.
            FDIC management did not agree with the
            recommendation stating that the contractor prepared
                                                                                                  Management
    2       the 14 Loss Letters in question with data available        Not Applicable                                  None             Yes
                                                                                                   Responses
            at the time at the direction of the Oversight
            Manager.




                                                                              23
